No. 19-688
IN THE

WELLS FARGO & Co.
and WELLS FARGO BANK, N.A.,
Petitioners,
V.

CITY OF MIAMI, FLORIDA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CERTIFICATE OF SERVICE

I, Daniel P. Kearney, a member of the bar of this Court, hereby certify that, on
this 26th day of December, 2019, all parties required to be served have been served
copies of the Brief for Amici Curiae The Chamber of Commerce of the United States of
America, American Property Casualty Insurance Association, and Business Roundtable
in Support of Petitioners in this matter by overnight courier to the addresses below.
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com

ROBERTS. PECK
CENTER FOR CONSTITUTIONAL
LITIGATION, P.C.
455 Massachusetts Ave., NW, Suite 152
Washington, DC 20001
(202) 944-2874
robert.peck@cclfirm.com

~::~~

WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

